   November 18, 2003




Information Technology
 Management
Allegations Concerning Improprieties
in Awarding National Guard
Contracts
(D-2004-020)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
    Additional Copies

    To obtain additional copies of this report, visit the Web site of the Inspector
    General of the Department of Defense at www.dodig.osd.mil/audit/reports or
    contact the Secondary Reports Distribution Unit of the Audit Followup and
    Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
    604-8932.

    Suggestions for Future Audits

    To suggest ideas for or to request future audits, contact the Audit Followup and
    Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
    604-8932. Ideas and requests can also be mailed to:

                      ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General of the Department of Defense
                            400 Army Navy Drive (Room 801)
                                Arlington, VA 22202-4704

    Defense Hotline

    To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
    424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
    writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
    identity of each writer and caller is fully protected.




Acronyms

Air NG/C4PC         Air National Guard Contract Management Branch
APB                 Acquisition Planning Board
Army-AIS            Army National Guard – Army Information Systems Division
CCB                 Configuration Control Board
DTTP                Distributive Training Technology Project
EDS                 Electronic Data Systems Corporation
IT                  Information Technology
ITRCB               Information Technology Requirements Control Board
LAN                 Local Area Network
MDW                 Military District of Washington
NCI                 NCI Information Systems, Inc.
NCR                 National Capital Region
          Office of the Inspector General of the Department of Defense
Report No. D-2004-020                                                November 18, 2003
   (Project No. D2002AL-0059)

             Allegations Concerning Improprieties in Awarding
                         National Guard Contracts

                                Executive Summary

Who Should Read This Report and Why? People interested in how the National
Guard procured information technology equipment and support for the Army and
Air National Guard Readiness Centers and the Distributed Training Technology
Program.

Background. This audit was performed in response to a referral from the General
Accounting Office regarding the awarding of certain National Guard contracts. The
National Guard Bureau is a joint bureau of the Departments of the Army and Air Force,
and functions as a staff and operating capability for each Component. The National
Guard provides military support to civil authorities; responds to state emergencies; and
provides support to law enforcement in the war on drugs. Our objective was to determine
the validity of allegations of improprieties in awarding certain National Guard contracts.

Results. Of three allegations, two were partially substantiated and one was
unsubstantiated. See Appendix B for a detailed discussion of each allegation. In the
process of determining the validity of the allegations, we identified a potential
Antideficiency Act violation and other issues of concern that need to be addressed.

The Army National Guard used $1.3 million of operations and maintenance funds rather
than procurement funds to finance the purchase of information technology equipment.
The Assistant Secretary of the Army (Financial Management and Comptroller) needs to
initiate a review and, if necessary, an investigation of the purchase from Alcatel to
determine whether an Antideficiency Act violation may have occurred (finding A).

The Army National Guard had not established formal policies addressing information
technology requirements of the Army National Guard Readiness Center, therefore there
is less assurance that the Army National Guard Readiness Center information technology
requirements will be adequately assessed, analyzed, validated and approved. The
Director, Army National Guard, in coordination with the Chief Information Officer,
National Guard Bureau needs to implement a formal acquisition policy for the Army
National Guard Readiness Center that integrates existing roles of acquisition oversight
boards and the information technology strategic plan (finding B).
The Army and Air National Guards did not consolidate requirements for help desk
support for the Military District of Washington and, as a result, may have lost
opportunities to achieve cost savings. The Army and Air National Guards should
coordinate the requirements for help desk support for the Military District of Washington
with the Chief Information Officer, National Guard Bureau and the Chief Information
Officer Executive Council to determine whether the contracts could be combined for
possible cost savings (finding C).

See the Findings section for details on the audit results.

Management Comments. The Acting Deputy Assistant Secretary of the Army
(Financial Operations) concurred, directing the Chief, National Guard Bureau to initiate a
preliminary investigation, Army case control number 04-01, of the potential
Antideficiency Act violation and provide a preliminary report by January 5, 2004. See
the Findings section of this report for a discussion of the management comments and the
Management Comments section of the report for the complete text of the comments.

The Director, Army National Guard; Director, Air National Guard; Chief, National
Guard Bureau; and Chief Information Officer, National Guard Bureau did not respond to
the draft report issued on August 22, 2003. Therefore, we request that the Director,
Army National Guard and the Chief Information Officer, National Guard Bureau
comment on the recommendation to implement a formal acquisition policy for the Army
National Guard Readiness Center that integrates existing roles of acquisition oversight
boards and the information technology strategic plan. Also, we request that the Director,
Army National Guard; Director, Air National Guard; Chief Information Officer, National
Guard Bureau; and the Chief Information Officer Executive Council comment on the
recommendation to coordinate the requirements for help desk support for the Military
District of Washington to determine whether the contracts could be combined for
possible cost savings. The comments on this report should be provided by December 18,
2003.




                                              ii
Table of Contents

Executive Summary                                                  i

Background                                                         1

Objectives                                                         2

Findings
     A. Procurement of Information Technology Equipment            3
     B. Information Technology Planning                            6
     C. Contract Coordination Between the Army and Air National    9
          Guard

Appendixes
     A. Scope and Methodology                                     11
         Prior Audit Coverage                                     11
     B. Summary of Allegations and Audit Results                  12
     C. Report Distribution                                       20

Management Comments
     Department of the Army                                       23
Background
           This audit was performed in response to a referral from the General Accounting
           Office regarding the National Guard’s awarding of certain contracts.

           National Guard Mission. The National Guard mission includes both Federal
           and State responsibilities. For Federal missions, the National Guard provides
           combat ready, mission-capable forces throughout the entire spectrum of conflict.
           For states missions, the Governors direct State National Guard units through the
           Adjutants General. The National Guard provides military support to civil
           authorities; responds to state emergencies; and provides support to law
           enforcement in the war on drugs.

           National Guard Bureau. The National Guard Bureau was formed to assist the
           50 States, District of Columbia, Puerto Rico, the U.S. Virgin Islands, and Guam
           to procure funding for the National Guard, administer policies, and act as a liaison
           between the Departments of the Army and Air Force and the States. The National
           Guard Bureau is a joint bureau of the Departments of the Army and Air Force and
           functions as a staff and operating capability for each component. The Army
           National Guard and the Air National Guard are each led by their own director.
           The Secretary of the Army and Secretary of the Air Force select the two directors.
           Both directors report to the Chief, National Guard Bureau.

           Army National Guard. The Army National Guard is composed primarily of
           civilian personnel who serve their country, State, and community on a part-time
           basis. Each State, territory, and the District of Columbia has its own National
           Guard and has a dual mission consisting of both Federal and State roles. For
           State missions, the Governor, through the state Adjutant General, commands
           Guard forces to call the National Guard into action during local or statewide
           emergencies, such as storms, fires, earthquakes, or civil disturbances. Similarly,
           the President of the United States can activate the National Guard for
           participation in Federal missions (known as Federalization). When Federalized
           by the President of the United States, National Guard personnel fall under the
           leadership of the Combatant Commanders of the theater in which they are
           operating.

           Army National Guard – Army Information Systems Division. The Army
           Information Systems (Army-AIS) Division1 provides technical assistance, data
           processing services, and systems and database integration for the 50 States,
           District of Columbia, Puerto Rico, the U.S. Virgin Islands, Guam, the National
           Guard Bureau, and other Department of the Army customers.

           Air National Guard. The Air National Guard was established as a separate
           Reserve Component of the U.S. Air Force on September 18, 1947.



1
    The report uses Army-AIS rather than NGB-AIS in order to identify AIS as an Army National Guard
    organization.



                                                    1
     Air National Guard – Contract Management Branch. The Contract
     Management Branch (Air NG/C4PC) supports Air National Guard information
     technology (IT), airspace and ranges, and air traffic control contract requirements.
     Air NG/C4 is also responsible for obtaining goods and services to support
     Air National Guard Headquarters IT requirements.

     Use of Terms. The terms Military District of Washington (MDW) and the
     National Capital Region (NCR) are used interchangeably in this report.


Objectives
     The audit objective was to determine the validity of allegations of improprieties in
     awarding certain National Guard contracts. Specifically, we determined the
     validity of the following anonymous allegations contained in a General
     Accounting Office referral.

            •   The Army National Guard purchased $1.2 million of Alcatel
                equipment without developing a need analysis, justification, or plan.

            •   The Air National Guard Readiness Center awarded Electronic Data
                Systems Corporation (EDS) a noncompetitive contract at the cost of
                millions of dollars more a year instead of participating in a Department
                of the Interior, Minerals Management Service contract that had been
                awarded to another contractor for the entire Army and Air National
                Guard National Capital Region [referred to as Military District of
                Washington in the contract]

            •   The National Guard pays more per classroom for its Distributive
                Training Technology Project (DTTP) classrooms than the Army and
                Navy pay for their respective distance learning programs. DTTP
                classrooms cost $1 million each compared to Army and Navy
                classrooms that cost less than $200,000 each.


Evaluation of Allegations
     Of the three allegations, two were partially substantiated and one was
     unsubstantiated. The allegations concerning the purchase of computer equipment
     from Alcatel by the Army-AIS and the awarding of a separate contract for the
     Air National Guard Readiness Center were partially substantiated. The allegation
     concerning the National Guard Bureau purchase of DTTP classrooms was
     unsubstantiated.

     In the process of determining the validity of the allegations, we identified a
     potential Antideficiency Act violation and other issues of concern that need to be
     addressed. See the Finding sections for discussion of those issues. See
     Appendix A for a discussion of the audit scope and methodology and prior audit
     coverage. See Appendix B for a detailed discussion of each allegation.


                                          2
           A. Procurement of Information
              Technology Equipment
           The Army-AIS used $1.3 million of operations and maintenance funds
           rather than procurement funds to finance the purchase of information
           technology equipment. As a result, a potential Antideficiency Act
           violation may have occurred.


Background on Purchase
    In June 2001, the Army-AIS used a Military Interdepartmental Purchase Request
    to provide $1.3 million of operations and maintenance funding in support of
    classified and unclassified communication requirements for the Army National
    Guard. Specifically, Army-AIS needed information technology equipment to
    upgrade obsolete components on the existing Readiness Center local area network
    (LAN) and to implement a standalone Readiness Center LAN.


Antideficiency Act Guidance
    Antideficiency Act Compliance. DoD Financial Management Regulation
    7000.14-R, Volume 14, “Administrative Control of Funds and Antideficiency Act
    Violations,” August 1995, states that Section 1517, Title 31, United States Code,
    forbids the overobligation and overexpenditure of an apportionment or an amount
    permitted by a regulation prescribed for the administrative control of
    appropriations. An Antideficiency Act violation may result if operations and
    maintenance funds rather than procurement funds are used to purchase equipment
    comprising a system costing more than the investment and expense threshold and
    the purchasing organization does not have the required amount of procurement
    funds at the time of the purchase.

    Remedy for Potential Violations. DoD Financial Management
    Regulation 7000.14-R, Volume 14 states that a preliminary review must be
    initiated in response to an Inspector General, DoD audit report advising that a
    potential Antideficiency Act violation may have occurred. If the preliminary
    review determines that there may be a potential Antideficiency Act violation, a
    formal investigation is required. DoD Financial Management Regulation,
    Volume 14, provides further guidance on investigating potential violations of the
    Antideficiency Act.




                                        3
Information Technology Funding
    DoD Financial Management Regulation 7000.14-R, Volume 2A, “Budget
    Formulation and Presentation,” June 2000, states that acquiring and deploying a
    complete system with a cost of $100,000 or more is an investment and should be
    budgeted in a procurement appropriation. Upgrades to an existing system
    involving multiple equipment component and software changes that are combined
    to address deficiencies or improve system performance will be treated as new
    equipment or system procurement in determining applicability of the investment
    or expense criteria. For modification efforts, only the cost of the upgrade is
    counted towards the investment threshold. Modernization costs of less than
    $100,000 are considered expenses and should be budgeted in the operations and
    maintenance appropriations. The validated requirement for, or upgrade to, a
    communications or information system may not be fragmented or acquired in a
    piecemeal fashion to circumvent the expense and investment criteria policy.


Funding for Purchase
    The Army-AIS used $1.3 million of operations and maintenance funds to finance
    the purchase of equipment for the Readiness Center network and the classified
    standalone Readiness Center LAN. According to the DoD Financial Management
    Regulation 7000.14-R, purchases of $100,000 or more to acquire or modify a
    system should use procurement funds. As a result, a potential Antideficiency Act
    violation may have occurred. Army-AIS officials indicated that their use of
    operations and maintenance funds was appropriate because each segment
    comprising the LAN is a subnet that, in their opinion, represents a complete
    system. Although the segments can function by themselves if they are not
    connected to the rest of the network, the network is managed as one LAN.
    However, DoD Financial Management Regulation 7000.14-R, Volume 14
    describes, as an example of a common Antideficiency Act violation, the use of
    operations and maintenance funds to purchase a computer system when other
    procurement funds are required. Other procurement funds shall be used whenever
    a piece of computer equipment becomes an integral part of a computer system or
    LAN unless the total cost of the entire system or LAN is less than the amount
    designated for the use of procurement funds. According to the DoD Financial
    Management Regulation, the remedy for this situation is performance of a
    preliminary review of the facts and a formal review if necessary.




                                       4
Recommendation and Management Comments
    A. We recommend that the Assistant Secretary of the Army (Financial
    Management and Comptroller) initiate a preliminary review and, if
    necessary, an investigation into the purchase of the Alcatel computer
    equipment to determine whether an Antideficiency Act violation occurred.
    If violations of the Antideficiency Act occurred, the Assistant Secretary
    should comply with the reporting requirements in DoD Financial
    Management Regulation, Volume 14, “Administrative Control of Funds and
    Antideficiency Act Violations.”

    Army Comments. The Acting Deputy Assistant Secretary of the Army
    (Financial Operations) concurred, directing the Chief, National Guard Bureau to
    initiate a preliminary investigation, Army case control number 04-01, of the
    potential Antideficiency Act violation and provide a preliminary report by
    January 5, 2004.




                                        5
                    B. Information Technology Planning
                    Although the National Guard Bureau and Army National Guard have
                    taken steps to improve planning for IT purchases, additional actions are
                    needed to formalize procedures for processing IT requirements of the
                    Army National Guard Readiness Center. Army National Guard and NCR
                    officials were unable to provide a formal policy for processing IT
                    requirements of the Army National Guard Readiness Center. As a result,
                    there is less assurance that Army National Guard Readiness Center
                    IT requirements will be adequately assessed, validated, prioritized, and
                    approved.


IT Planning Improvements for Army National Guard
           In FY 2001, the National Guard Bureau and Army National Guard took steps to
           improve planning for IT purchases. Specifically, the National Guard Bureau and
           Army National Guard established an oversight board to validate IT requirements
           and periodically review IT requirements that have been implemented. In addition,
           the Army National Guard established a configuration control board for the Army-
           AIS Enterprise Architecture.2

           IT Requirements Control Board. The Army National Guard IT Requirements
           Control Board (ITRCB) charter was approved in December 2000. The charter
           states that the ITRCB will determine investment risks and establish metrics to
           measure investment success. The charter also states that the ITRCB will validate
           IT proposals against investment criteria and periodically review validated and
           funded proposals. In addition, the ITRCB will meet before the Acquisition
           Planning Board (APB) meets and provide input to the APB, and call additional
           meetings to work pending issues. National Guard Bureau representatives stated
           that the ITRCB reviews IT purchase requests with life cycle costs of more than
           $100,000.

           Army-AIS Configuration Control Board. The Army AIS Configuration
           Control Board (CCB) charter was approved in June 2001. The charter states that
           the board was created to provide informed, coordinated, systematic control of
           changes to the AIS Enterprise Architecture. The charter also states that the board
           will review items that affect the ability of the Enterprise Architecture to meet
           operational missions, provide a technical assessment against the Army National
           Guard configuration baseline for all requirements, and validate new requirements
           to the target architecture.



2
    OMB Circular A-130 defines an enterprise architecture as the explicit description and documentation of
    the current and desired relationships among business and management processes and information
    technology. The enterprise architecture describes the “current architecture” and “target architecture” to
    include the rules, standards, and systems life cycle information to optimize and maintain the environment
    that the agency wishes to create and maintain by managing its IT portfolio.



                                                       6
IT Planning Improvements for the NCR
     The Army National Guard, Air National Guard, and the National Guard Bureau
     are initiating steps to improve IT purchase planning for the NCR. These steps
     include developing an NCR IT strategic plan and establishing an NCR CCB.

     NCR IT Strategic Plan. The NCR IT Strategic Plan for the Army National
     Guard Readiness Center and Jefferson Plaza 1 will provide baseline architectures
     and set technical goals at 6-month intervals for the next 2 years. The plan will
     also address network topology, server configuration, and major network services
     and will describe system technical goals and associated costs, benefits, and
     difficulties. Major initiatives that the plan will address include a server
     consolidation and migration to a Gigabit Ethernet LAN topology using Alcatel
     equipment. The strategic plan is still under development and several sections are
     not yet complete.

     NCR CCB. The NCR CCB charter states that the NCR CCB will provide the
     principal forum to review technical matters on the analysis, disposition, and
     execution of NCR LAN requirements. The NCR CCB will ensure that technical
     solutions meet system requirements through life-cycle management, system
     analysis and integration, evolution planning, and requirements assessment. The
     NCR CCB will provide management and technical risk assessments of
     requirements and ensure that technical solutions meet enterprise architecture
     standards. The NCR Director of Information Management indicated that this was
     the first CCB specifically for the NCR. Previous efforts were essentially
     controlled by the Wide Area Network.


Implementation Policy for IT Planning Process
     The National Guard Bureau prepared a draft policy for implementing National
     Guard Bureau IT requirements. The draft policy, dated August 8, 2002, outlines
     procedures and responsibilities for funding, approving, and implementing
     National Guard Bureau IT requirements. Initially, IT requirements will be
     verified to determine whether they are within the scope of the NCR IT strategic
     plan. All IT requirements of more than $25,000 will be forwarded to the
     NCR CCB for technical analysis and risk assessment. The NCR CCB will
     forward the requirement along with a recommendation to the Army-AIS CCB for
     assessment of the impact on the Army Enterprise Network. The Army-AIS CCB
     will forward the requirement and its recommendation to the ITRCB for validation
     and approval. The NCR CCB will work to implement and install new systems
     and software. The draft policy applies only to the IT requirements of the
     Jefferson Plaza 1 facility and not to the Army National Guard Readiness Center.
     An Army-AIS official and the NCR Director of Information Management stated
     that they were not aware of any similar policy covering IT requirements of the
     Readiness Center.




                                         7
Recommendation
    B. We recommend that the Director, Army National Guard, in coordination with
    the Chief Information Officer, National Guard Bureau implement a formal
    acquisition policy for the Army National Guard Readiness Center that integrates
    the existing roles of the Acquisition Planning Board, Information Technology
    Requirements Control Board, Army Information Systems Configuration Control
    Board, National Capital Region Configuration Control Board, and the National
    Capital Region Information Technology Strategic Plan.


Management Comments Required
    The Director, Army National Guard and Chief Information Officer, National
    Guard Bureau did not respond to the draft report. We request that the Director,
    Army National Guard and the Chief Information Officer, National Guard Bureau
    provide comments in response to the final report.




                                       8
            C. Contract Coordination Between the
               Army and Air National Guard
            The Army and Air National Guards did not consolidate the requirements
            for help desk support for the MDW. Because the Army and Air National
            Guards did not effectively coordinate their requirements through the
            National Guard Bureau Chief Information Officer and the Chief
            Information Officer Executive Council, opportunities to achieve potential
            cost savings may have been lost.


Chief Information Officer and the Chief Information Officer
  Executive Council
     Role of the Chief Information Officer, National Guard Bureau. The Chief
     Information Officer serves as the information technology official for the National
     Guard, an advocate for the National Guard acquisition workforce, and a catalyst
     for facilitating communications between the Air National Guard, Army National
     Guard, and Joint Staff. The Chief Information Officer also explores opportunities
     for joint initiatives and interoperability of systems and is responsible for ensuring
     compliance with all applicable laws and regulations. The Chief Information
     Officer follows two primary guidelines. The first states that consensus will be
     used as the decision-making technique in making recommendations to the Chief,
     National Guard Bureau. The second states that Chief Information Officer will, in
     conjunction with the Chief Information Officer Executive Council, establish
     review processes for National Guard Bureau IT procurement, policy, planning
     procedures, and budgeting.

     National Guard Policy Concerning Coordination. One of the responsibilities
     of the Chief Information Officer Executive Council is to build consensus among
     the Army National Guard, Air National Guard and Joint Staff Chief Information
     Officers and their staffs to ensure interoperability, reduce duplication and
     redundancy, and enhance the mission performance of the National Guard.
     Although the National Guard Bureau Chief Information Officer charters and
     oversees the Chief Information Officer Executive Council, the Chief Information
     Officer, National Guard Bureau stated that the Army National Guard and Air
     National Guard Chief Information Officers report directly to their Directors. The
     Chief Information Officer further stated that the Chairman, Chief Information
     Officer Executive Council had no official control over the flow of dollars for
     contractual funding to the National Guard agencies, did not have enough staff
     members to perform administrative tasks, and did not voice opinions of Army and
     Air National Guard operations that were outside their immediate rating chain.




                                           9
Contracts for Help Desk Support
    On August 23, 2001, a contract for help desk support for the Army National
    Guard was awarded to NCI Information Systems, Inc (NCI). On October 1, 2001,
    a contract was awarded to EDS for help desk support for the Air National Guard
    Readiness Center. Both contractors were on the General Services Administration
    IT Schedule. The support provided by both contractors to their respective
    National Guard organizations was similar. See Allegation 2 in Appendix B for
    details on both the Army and Air National Guard contracts.


Coordination of Requirements
    Lack of Coordination. The Chief Information Officer, National Guard Bureau
    provided minutes from a Chief Information Officer Executive Council meeting
    held on June 14, 2001. According to the minutes, an Army-AIS official provided
    an overview of the statement of work for maintenance support for the Army
    National Guard MDW. Comments on the statement of work were requested by
    June 18, 2001, which gave the Air National Guard only 4 days to review the
    statement of work and provide input. The solicitation was released on June 20,
    2001. The Chief Information Officer stated that she had not seen the Army
    National Guard contract with NCI until August 2001 and had never seen the Air
    National Guard contract with EDS.

    The Air NG/C4PC contracting officer representative stated that he was aware of
    the Amy National Guard competition but did not have enough time to respond.
    The contracting officials at the 12th Contracting Squadron, Randolph Air Force
    Base, Texas, stated they were not aware of the Army National Guard competition.


Recommendation
    C. We recommend that the Director, Army National Guard and the Director, Air
    National Guard coordinate the requirements for help desk support for the Military
    of District of Washington with the Chief Information Officer, National Guard
    Bureau, and the Chief Information Officer Executive Council, to determine
    whether the contracts could be combined for possible cost savings.


Management Comments Required
    The Director, Army National Guard; Director, Air National Guard; and Chief
    Information Officer, National Guard Bureau did not respond to the draft report.
    We request that the Director, Army National Guard; Director, Air National
    Guard; the Chief Information Officer, National Guard Bureau; and the Chief
    Information Officer Executive Council provide comments in response to the final
    report.


                                       10
Appendix A. Scope and Methodology
    To accomplish the audit objective, we performed work in the following areas:

           •   Reviewed applicable criteria concerning computer equipment
               purchases and contract awards;

           •   Reviewed the Army National Guard IT purchase process and computer
               equipment procurement records for FY 2000, FY 2001, and FY 2002;

           •   Reviewed the Army National Guard Systems Engineering Integration
               Group Charter;

           •   Reviewed source selection documentation for the Army National
               Guard contract;

           •   Compared the Army National Guard statement of work for the MDW
               with the Air National Guard statement of work for the Readiness
               Center to determine whether the services provided were similar;

           •   Reviewed the National Guard Chief Information Officer Charter and
               the Chief Information Officer Executive Council Charter;

           •   Reviewed the coordination process between the Army National Guard
               and Air National Guard to determine whether it was successful in
               preventing duplication of effort; and

           •   Obtained and reviewed classroom configuration and cost per
               configuration for the DTTP, the Total Army Distance Learning
               Program, and the Navy Distance Learning Program.

    Documents reviewed were dated from February 10, 1996 through August 8, 2002.

    We performed this audit from December 2001 through June 2003 in accordance
    with generally accepted government auditing standards. Because the person who
    made the allegation chose to remain anonymous, we were unable to determine the
    exact nature of some of the allegations. The scope of the audit was limited in that
    we did not review the management control program. Because we did not audit
    the Total Army Distance Learning Program or the Navy E-Learning Program, we
    did not verify the information provided by either program office.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD contract management high-risk areas.


Prior Coverage
    No prior coverage has been conducted on the subject in the last 5 years.


                                        11
Appendix B. Summary of Allegations and Audit
            Results
   The allegations and a summary of the audit results pertaining to each allegation
   are provided below.

   Allegation 1. The Army National Guard purchased $1.2 million of
   Alcatel equipment without developing a need analysis, justification, or plan.

   Audit Results. The allegation was partially substantiated.

          •   In June 2001, the Army-AIS used a Military Interdepartmental
              Purchase Request to provide $1.3 million of operations and
              maintenance funding in support of classified and unclassified
              communication requirements for the Army National Guard.

          •   Army-AIS prepared justifications in June 2001 to upgrade the
              Readiness Center network and to implement a classified standalone
              Readiness Center LAN. The justifications consisted of a list of
              equipment and the reason for the purchase.

          •   Army-AIS could not provide documentation showing how they
              planned for the purchase. Army-AIS officials indicated that there was
              no documentation of the requirements or the working group meetings
              used to develop the technical solution for the purchase. In addition,
              we could not determine that any technical group, such as a
              configuration control board, had reviewed the technical solution or its
              impact on the architecture.

          •   Army-AIS officials stated that the APB approved the requirement in
              FY 2000. However, the APB worksheets provided by Army-AIS did
              not mention the need to upgrade the existing LAN or establish a
              classified standalone Readiness Center LAN. See Finding B for
              details on the steps Army-AIS took to improve its planning for IT
              purchases and the actions still needed to implement a comprehensive
              planning process.

   Oversight for Purchase. Army-AIS officials stated that the Army National
   Guard APB approves requirements for contracts with life cycle costs in excess of
   $200,000. Army-AIS officials stated that Army National Guard Components use
   worksheets to describe their requirements to the APB.

   Army-AIS officials stated that they purchased the Alcatel equipment for the
   Readiness Center’s LAN after the APB approved the requirement in FY 2000.
   The Army-AIS worksheets stated that the mission need was to maintain
   equipment supporting the LAN and to replace any broken and malfunctioning
   equipment. However, the APB worksheets did not discuss the need to upgrade
   the equipment or to implement a standalone LAN.



                                       12
We asked Army-AIS officials if any group had reviewed the technical solution
and its impact on the architecture. The officials stated that the Army-AIS branch
that designed the solution developed it to fit the architecture. Although the
justification documentation provided by Army-AIS indicated that the Alcatel
purchase would affect the ability of the Army National Guard Readiness Center to
achieve its operational mission, we found no indication from Army-AIS officials
that the Army-AIS CCB or other technical oversight group had reviewed the
technical solution. Finally, Army-AIS officials stated that the ITRCB was
established too late to review the Alcatel requirement.

Planning Documentation for Purchase. Army-AIS officials stated that they
used an informal process to identify the technical solution. Army-AIS officials
stated that they used a working-group approach with the EDS engineers to
develop the technical solution based on Army-AIS network requirements.

Army-AIS officials could not provide documentation of the requirements, the
analysis, or the technical solution. Army-AIS officials provided Information
Management Requirement/Project Document, DA Forms 5695-R (request forms)
as justification for the purchase. The request forms, dated June 2001, included a
list of Alcatel equipment to be purchased. Generally, the request forms indicated
that Army-AIS needed the Alcatel equipment to upgrade old obsolete components
on the Army National Guard Readiness Center network. In addition, the request
forms stated that Army-AIS needed the Alcatel equipment to implement a
classified standalone Readiness Center LAN because there were not enough
existing terminals to perform classified missions.

Finally, Army-AIS officials stated that they had provided a verbal solicitation to
four vendors based on the technical solution and then selected Alcatel based on
lowest price. However, Army-AIS was unable to provide supporting
documentation for the source selection decision.

Allegation 2. The Air National Guard Readiness Center awarded EDS a
noncompetitive contract at the cost of millions of dollars more a year instead of
participating in a Department of the Interior, Minerals Management Service
contract that had been awarded to another contractor for the entire Army and
Air National Guard NCR (referred to as the MDW).

Audit Results. The allegation was partially substantiated.

       •   The Air National Guard would not participate in the Army National
           Guard contract for help desk support. On October 1, 2001, a contract
           to provide technical support to the Air National Guard Readiness
           Center’s LAN located at Andrews Air Force Base, Maryland, was
           awarded to EDS.

       •   The 12th Contracting Squadron competed the contract for Air National
           Guard Readiness Center help desk support. The process used by the
           Air National Guard to initiate the solicitation process by the
           12th Contracting Squadron did not violate the Federal Acquisition
           Regulation by waiting until the end of the fiscal year to compete the
           contract.


                                    13
       •   Although the Army National Guard briefed the CIO Executive Council
           on the MDW statement of work, it gave the Air National Guard only
           4 days to review the statement of work and provide requirements for
           inclusion.

       •   We could not substantiate whether the contract award to EDS for the
           Air National Guard Readiness Center’s LAN resulted in increased
           costs to the Government because the additional cost to include Air
           National Guard Readiness Center requirements in the Army National
           Guard contract is unknown. See Finding C for a discussion of the
           adequacy of contract coordination between the Army and Air National
           Guard.

Contracts for Help Desk Support

Army National Guard Contract. The Army National Guard requirements for
technical support for the Army National Guard Readiness Center’s LAN were
competed from June through August 2001. The Army National Guard divided its
requirements into two separate efforts and recompeted each through the
Department of the Interior, Minerals Management Service. Two contracts were
awarded that totaled $15.5 million per year: $5 million for the Army National
Guard help desk for the MDW and $10.5 million for the combined Enterprise
Operations Section and network operations center (hardware and software
support). The contract for the Enterprise Operations Section was awarded to the
SRA Corporation. The terms and conditions of this award were not audited
because the competition for this contract was not the focus of the allegation.

The statement of work for the help desk contract recognized that the Government
was allowed to modify the contract to include other National Guard offices and
locations as necessary. According to the contracting officer, the Department of
the Interior, Minerals Management Service solicited proposals from
six contractors on the General Services Administration IT Schedule for the Army
National Guard contract that focused on help desk services. Two additional
contractors requested and received a copy of the solicitation after the Department
of the Interior, Minerals Management Service chose the original six contractors.
Of the eight contractors, four submitted qualification statements and were
included in the final evaluation. After a competitive process, which took place
from June through August 2001, on August 23, 2001, the Army National Guard
contract was awarded to NCI.

Air National Guard Readiness Center Contract. The Air National Guard’s
contract with EDS, which provided technical support for the Air National Guard
Readiness Center, also expired on September 30, 2001. The Air National Guard
requested that the 12th Contracting Squadron compete its requirements for help
desk support. The 12th Contracting Squadron solicited Requests For Proposals
from four contractors on the General Services Administration IT Schedule for the
help desk contract. Of the four potential contractors included in the competition,
EDS was the only contractor to provide a response. Officials of the
12th Contracting Squadron stated that one contractor requested to be removed
from the contract selection process and two contractors did not respond. On



                                    14
October 2, 2001, the Air National Guard contract was awarded to EDS. The
contract, valued at approximately $6.3 million, covered the same services as the
previous contract, but on a 24-hour, 7-day a week basis.

Comparison of Statements of Work. The services required of both contractors
to their respective National Guard organizations are similar. In fact, EDS was an
unsuccessful bidder for the Army National Guard contract. Both National Guard
organizations require the contractor to provide technical help desk support for an
operational network on a 24-hour, 7-day a week basis. Both contractors are
required to provide Tier 1 (Help Desk) and Tier 2 (Desktop) support. Although
the Air National Guard does not have Tier 3 (Systems Engineering) support level
requirements, many of its Tier 2 contractor responsibilities are similar to the
Tier 3 functions required by the Army National Guard. Both contracts are
concerned with the maintenance, availability, and accessibility of the system and
the contractors are responsible for maintaining their respective help desks when
network threats arise. Both contracts require monthly performance and
maintenance reports as well as quality assurance reviews of open help desk
requests to ensure problems are resolved.

Annual Contract Awards

Consecutive 1-year Awards to EDS. According to their September 26, 2000,
proposal for the 1999 and 2000 contract, the September 25, 2001, proposal for the
2000 and 2001 contract, and the 2001 and 2002 contract cover page, EDS was
awarded the Air National Guard Readiness Center contract for help desk support
for 3 consecutive years. Air NG/C4PC officials stated they informed the
12th Contracting Squadron contracting officials that EDS was its preferred
contractor. The 12th Contracting Squadron contracting officials stated if a
customer wants the incumbent contractor included, that contractor is added to the
list of other qualified sources provided with the request for solicitation. The
customer then selects the contractor that will provide them the best service value.
For the award beginning October 2001, EDS was the only contractor to reply.

According to the 12th Contracting Squadron contracting officials, their customers
are contacted every April to remind them that the end of the fiscal year is
approaching and recommend that they begin preparing their renewed or revised
requirements for the next fiscal year. The 12th Contracting Squadron contracting
officials also stated that until they received the client’s requirements, the
12th Contracting Squadron is unable to begin contractual competitions. On
September 19, 2001, Air NG/C4PC provided the 12th Contracting Squadron with
the purchase request for this award. On September 20, 2001, the 12th Contracting
Squadron issued requests for proposals to four potential contractors. The requests
noted that past performance information for the contractor was due by
September 22 and that written technical proposals were due by September 25.
According to 12th Contracting Squadron contracting officials, EDS was the only
vendor to respond with the necessary information A past performance
questionnaire from the Air National Guard’s Chief of Network Operations and
Security Center in favor of EDS was received by e-mail on September 26. The
Air National Guard evaluation of the EDS technical proposal was provided to the
12th Contracting Squadron on September 27. EDS was awarded the contract as
the Air National Guard Readiness Center’s technical provider effective October 1.


                                    15
This accelerated schedule reduced the competition to 2 weeks from
announcement to award and allowed little time for other potential contractors to
review and respond to the award requirements.

Allegation 3. The National Guard pays more per classroom for its DTTP
classrooms than the Army and Navy pay for their respective distance learning
programs. DTTP classrooms cost $1 million each compared to Army and Navy
classrooms that cost under $200,000 each.

Audit Results. The allegation was unsubstantiated.

       •   The National Guard classroom costs are less than the costs associated
           with the Army classrooms.

       •   We did not compare National Guard classroom costs with those
           associated with Navy classrooms because the Navy leased their
           classroom requirements.

       •   DTTP classrooms did not cost more than $1 million each. The DTTP
           Program Office provided documentation showing nine different
           classroom configurations with estimated costs ranging from $174,000
           to $452,000. The estimates included costs for installation, integration,
           logistics and hardware.

       •   DTTP program office officials stated that the Defense Information
           Systems Agency competed the original GuardNet XXI contract in
           1995 and EDS won that competition. DTTP program office officials
           also stated that, in 1998, Army-AIS became the executive agent for
           GuardNet XXI and that the GuardNet XXI contract was awarded to
           the Science Applications International Corporation in May 2002.

DTTP. Based on EDS cost estimates, the National Guard spent approximately
$14.9 million for 60 DTTP classrooms in FY 2001. As of January 21, 2002,
291 DTTP classrooms had been fielded. According to DTTP program office
officials, three contractors support the DTTP: Booz Allen and Hamilton, Carson
and Associates, and EDS. The DTTP program office officials stated that
Booz Allen and Hamilton developed the DTTP specific software for scheduling,
metering, and billing; Carson and Associates provided program office support;
and EDS was responsible for building the GuardNet XXI classrooms. The DTTP
program office officials also stated that the contract for GuardNet XXI classrooms
was awarded to the Science Applications International Corporation in May 2002.

DTTP program office officials provided representative classroom costs for
classrooms that seat from 3 to 40 individuals. According to the documentation
provided, the estimated classroom costs for the various configurations ranged
from $174,000 to $452,000. Those costs do not include site preparation costs.
According to documents provided by EDS, the FY 2001 cost of a 10-seat
Multi-Media Scalable 450 Series classroom was $248,472. Table 1 provides a
breakdown of those costs attributable to the acquisition of the 10-seat
Multi-Media Scalable 450 Series classroom.



                                    16
                Table 1. DTTP 10-Seat Multi-Media Scalable
                         450 Series Classroom Costs

                       Labor Costs        Other Costs           Total
 Installation           $ 59,000          $     5,150         $ 64,150
 Integration               10,181                   0           10,181
 Logistics                11,184                5,150           16,334
 Hardware                 127,807                              127,807


 Site Prep              $ 30,000                     0        $ 30,000
 Total                                                        $248,472


According to DTTP program office officials, DTTP buys its classroom
equipment, uses commercial off-the-shelf software products, and pays standard
license fees for Windows. DTTP program office officials also stated that the
middleware linking the various commercial off-the-shelf products is the only
DTTP-specific software, and there are no license fees for the middleware.

The Army Distance Learning Program. The Army Distance Learning Program
is managed by the U.S. Army Training and Doctrine Command’s Program
Integration Office and the Program Executive Office for Enterprise Information
Systems. The Army Distance Learning Program is divided into two components -
courseware managed by the U.S. Army Training and Doctrine Command, and
delivery systems managed by the Program Executive Office for Enterprise
Information Systems through the Program Manager, Distributed Learning
System. According to officials in the Program Executive Office for Enterprise
Information Systems, the Army Distance Learning Program has fielded more than
243 Digital Training Facilities, plans to have approximately 380 Digital Training
Facilities across the globe, and has trained more than 373,000 students since the
program began.

According to officials in the Program Executive Office for Enterprise Information
Systems, the Army obligated approximately $20 million for Digital Training
Facilities and completed 55 facilities in FY 2001. The officials explained that
four contractors support the Distributed Learning System: IBM Business
Consulting Services, Inc., ACS Systems and Engineering, Inc., The Portable
Warehouse, and Sprint Communications Company and gave a brief description of
the services that each contractor provides. IBM Business Consulting Services,
Inc., operates the Distributed Learning System Enterprise Management Center,
provides digital training facility manager services, and is responsible for
development of the Army Learning Management System. ACS Systems and
Engineering, Inc., performs site survey and Digital Training Facility installation


                                     17
activities. The Portable Warehouse provides computer hardware, and Sprint
Communications Company (through the U.S. Army Training and Doctrine
Command Tele-Training Network) delivers and installs video teletraining
equipment. The officials stated that the Army buys its classroom equipment.

Officials of the Program Executive Office for Enterprise Information Systems
stated that, in FY 2001, the Army Distance Learning Program has a standard
configuration of 16 workstations for active duty students and 12 workstations for
U.S. Army Reserve students. According to the officials, the representative cost
for a 16-workstation classroom is $282,400 and for a 12-workstation classroom it
is $277,100. The officials further stated that annual sustainment costs of $80,000
were not included for either classroom. However, officials in the Program
Executive Office for Enterprise Information Systems stated that they could not
provide a true average cost per classroom because of the configuration of
buildings and rooms provided by installations. The officials further stated the
cost per room is usually less if all three classrooms are located in the same
building, slightly higher if two rooms are located in one building and one in
another, and may be slightly higher if all three rooms are in different buildings.
Table 2 provides a breakdown of the representative costs for both configurations
as of June 2002.


        Table 2. The Army Distance Learning Program Classroom Costs
                                Active Component           U.S. Army Reserves
                              Digital Training Facility   Digital Training Facility
                                 (16 workstations)           (12 workstations)
Site Survey (Facility and             $ 24,700                    $ 24,700
Video Teletraining)
Engineer, Furnish, Install            120,800                     114,500
& Test
Hardware                                 80,500                    73,000
Networking                               56,400                    64,900
Total                                $282,400                    $277,100


Navy E-Learning Program. The Navy E-Learning Program is the Navy
distance learning program. The program delivers, tracks, and manages more than
1,000 e-courses at no cost to more than 1.2 million Navy and Marine Corps active
duty personnel, their family members, civilian employees, reservists, and retirees.
The program allows students to continue their education, training, and
professional development in IT, leadership, management, and several
Navy-specific topics through use of the Internet.

Officials at the Naval Education and Training Command stated that the Navy-
Marine Corps Video Teletraining Program is the Navy’s Video Teletraining


                                    18
Network The officials further stated that the Navy-Marine Corps Video
Teletraining network has two hubs: the Fleet Combat Training Center Atlantic at
Dam Neck in Virginia Beach, Virginia; and the Fleet Training Center, San Diego,
California. The officials also stated that the Fleet Combat Training Center,
Atlantic serves as the Executive Agent for the Navy-Marine Corps Video
Teletraining.

Officials at the Naval Education and Training Command stated that
approximately $5.4 million is expended each year for the Video Teletraining
Program. Approximate costs attributed to the program include:

       •   $3 million for leased classroom equipment and contractor-provided
           facilitators.

       •   $1 million for fleet Video Teletraining installations and support.

       •   $0.75 million for dedicated circuits and Integrated Services Digital
           Network usage charges.

       •   Additional costs for salaries, miscellaneous equipment, and
           consumable supplies.

According to Navy E-Learning Program Office officials, as of October 2002, the
Video Teletraining Program consisted of 28 Navy shore sites with 36 classrooms
and 8 conference rooms, and 25 permanent Video Teletraining installations on
ships. The officials stated that Applied Global Technologies is the prime
contractor for all shore sites and provides classroom equipment to the Navy under
a lease arrangement. The Space and Naval Systems Command provides Video
Teletraining installation and support for all fleet sites. The officials further stated
that the cost to lease equipment for a 24-seat classroom in the continental United
States is $33,222 per year and that each site requires a T-1 communications line
which has an average cost of approximately $1,500 per month. Although the
officials stated that there are no additional instruction costs, certain high-usage
classrooms require a contractor-furnished facilitator at an additional cost.




                                      19
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Program Executive Office, Enterprise Information Systems
   Program Manager, Total Army Distance Learning Program

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Chief of Naval Education and Training
  Program Manager, Learning Systems

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Inspector General, 12th Flying Training Wing
   Commander, 12th Contracting Squadron

Other Defense Organizations
Chief, National Guard Bureau
  Director, Army National Guard
  Director, Air National Guard

Non-Defense Federal Organization
Office of Management and Budget




                                          20
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        21
Department of the Army Comments




                    23
24
Team Members
The Acquisition Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Charles M. Santoni
Robert L. Shaffer
Julie C. Kienitz
Barry D. Gay
Yolanda D. Bailey
Kevin A. Palmer
Jacqueline N. Pugh
